                                       Office of Inspector General
                                      Corporation for National and
                                               Community Service




       AGREED-UPON PROCEDURES OF CORPORATION
      FOR NATIONAL AND COMMUNITY SERVICE GRANTS
          AWARDED TO THE MISSOURI COMMUNITY
                 SERVICE COMMISSION

                          OIG REPORT 10-14




                            Prepared by:

                  Leon Snead & Company, P.C.
                 416 Hungerford Drive, Suite 400
                   Rockville, Maryland 20850




This report was issued to Corporation management on April 16, 2010. Under the laws and
regulations governing audit follow-up, the Corporation is to make final management decisions
on the report’s findings and recommendations no later than October 18, 2010 and complete its
corrective actions by April 18, 2011. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                        NATIoNAu5;r
                                        COMMUNITY
                                        SERVICE r:ut
                           OFFICE OF INSPECTOR GENERAL


                                          April 16, 2010


TO:           Lois Nembhard
              Acting Director, AmeriCorps*State and National

              Margarel Rosenberry
              Director, Office of G ~a~ts M~nagement

FROM:         SlUart Axenfeld   /~ A~tJJ
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 10-14, Agreed-Upon Procedures Review of Cotporation Grants
              Awarded to Missouri Community SeNice Commission


Attached is the final report for the above-noted agreed-upon procedures review. We contracted
with the independent certified public accounting firm of Leon Snead & Company, PC (Snead) to
perform the procedures. The contract required Snead to conduct its review in accordance with
generally accepted government auditing standards.                                        .

Snead is responsible for the attached report, dated December 4, 2009, and the conclusions
expressed therein . We do not express opinions on the Consolidated Schedule of Awards and
Claimed and Questioned Costs or the Subgrantees' Schedule of Awards and Claimed and
Questioned Costs , conclusions on the effectiveness of intemal controls, or the grantee's
compliance with laws, regulations , and grant provisions .

Under the Corporation 's audit resolution policy, a final management decision on the findings in
this report is due by October 18, 2010. Notice of final action is due by April 18, 2011 .

If you have questions pertaining to this report, please call me at (202) 606-9360 , or Rick
Samson, Audn Manager, al (202) 606-9380.

Attachment

cc:     Linda Thompson, Executive Director, Missouri Community Service Commission
        William Anderson, Acting Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
        Management, CNCS
        Bridgette Roy, Administrative Assislant, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Susan Montee, Missouri State Auditor
        Leon Snead, Leon Snead & Company, PC




                1201 New York Avenue, NW    * Suite 830 ": Washington , DC 20525
                    202-606-9390    *
                                   Hotline: 800-452-8210   *www.cncsoig.gov

                     Senior Corps   * ArneriCorps * Learn and Serve America
                            OFFICE OF INSPECTOR GENERAL
                           AGREED-UPON PROCEDURES FOR
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 GRANTS AWARDED TO
                       MISSOURI COMMUNITY SERVICE COMMISSION

                                                  TABLE OF CONTENTS




Executive Summary ................................................................................................................1

Independent Accountant’s Report on Applying Agreed-Upon Procedures .............................3

Consolidated Schedule of Award Costs ..................................................................................5

Schedule A – Claimed and Questioned Costs (06ACHMO001) .............................................6

Schedule B – Claimed and Questioned Costs (06AFHMO001)..............................................7

Schedule C – Claimed and Questioned Costs (07CAHMO001, 08PTHMO001 &
             08CDHMO001) ................................................................................................8

Schedule D – Claimed and Questioned Costs (04ESHMO001) .............................................9

Compliance Findings.............................................................................................................10

Internal Control Finding.........................................................................................................17

Objectives and Scope of Agreed-Upon Procedures Applied.................................................19

Background ...........................................................................................................................19

Consolidated Schedule of Questioned Costs........................................................................21


Appendix A – Missouri Community Service Commission Response

Appendix B – Corporation for National and Community Service Response




                                                                i
LEON SNEAD
,- CO MPANY,
~         'C P . _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ & MQIIlIgrmr'" CO"SJllltwls    .::..c==:.c..:==-"-
                                                                    Cn"ll/il"d Pub/I'- ArcOllIItallt5


416 Hungerford Drive, Sui te 400
Rockville, M1lryla nd 20850
301·738·8 190
fax: 301-738-82\0
lronsncad.companyp<i:'erols.com



               Office of Inspector General
               Corporation for National and Community Service
               Washington , DC 20525

               Leon Snead & Company , P.C. applied procedures, agreed upon by the Office of
               Inspector General (DIG). to the costs incurred by the Missouri Community Service
               Commission (Commission) and its subgrantees from August 1, 2006, through June 30 ,
               2009, under grants awarded by the Corporation for National and Community Service
               (Corporation). The results of the agreed-upon procedures include findings of questioned
               costs; instances of noncompliance with Federal laws , regulations or award conditions ;
               and a weakness in the internal control system of the Commission .

                                                     E XEC UTIVE S UMMARY

                Our application of agreed-upon procedures resulted in questioned costs amounting to
                $21 ,499, including $15 ,386 in grant costs , and $6 ,113 in education awards.          A
                questioned cost is: (1) an alleged violation of a provision of law, regulation , contract,
                grant, cooperative agreement , or other agreement or document governing the
                expenditure of funds; (2) a finding that , at the time of testing , such cost was not
                supported by adequate documentation; or, (3) a finding that the expenditure of funds for
                the intended purpose was unnecessary or unreasonable. We questioned costs for the
                following reasons :

                     •    Unallowable costs - $10 ,586
                     •    Ineligible educa tion awards - $6 ,113
                     •    Unsupported costs - $4 ,800

                We used non-statisticat sampling to test the costs claimed by the Commission for
                compliance with its award agreements with the Corporation and other Federal
                requirements. Based on this sampling , questioned costs detailed in this report may not
                represent total costs that may have been questioned had all expenditures been tested .
                In addition , we made no attempt to project such questioned costs to total costs claimed.

                                                          COMPLIANCE

                Our review of the Commission 's compliance with Federal laws, applicable regulations ,
                and award conditions disclosed the following in stances of noncompliance:

                     •    The Commission charged the grant funds for membership dues paid to an
                          organization that is involved in influencing legislation, and lobbying activities.
      Member compliance requirements were not met for compelling personal
       circumstances, background checks and member contracts.
      Grant funds were inappropriately drawn down.

                                 INTERNAL CONTROLS

The findings included one area of weakness in the Commission’s internal control
system. The Commission:

      Did not have effective procedures in place to reconcile expenditures reported on
       final Financial Status Reports (FSRs) to its accounting records and to the
       drawdowns.




                                          2
LEON SNEAD                                                                                       Certiji«/ Public IIccor,,,la,,ls
& COMPANY,          rc. _____ _____________________-=--_"---___           _
                                                   & Mmmgement CtJlrsultulIls

416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-82\0
leonsnead_companypc@'erols.com


               Office of Inspector General
               Corporation for National and Community Service
               Washington, DC 20525


                                      INDEPENDENT ACCOUNTANT'S REPORT ON
                                       APPLYING AGREED· UPON PROCEDURES

               We have performed the procedures , agreed to by the OIG, solely to assist the OIG in
               evaluating the Commission 's compliance with applicable laws and regulations, and
               assessing the allowabi lity of the costs incurred by the Commission for the award
               numbers listed below. These costs , as presented in the Consolidated Schedule of
               Award Costs, are the responsibility of the Commission management.

                            Program                          A w ard No .          Award Period
                    AmeriCorps - Competitive               06ACHMOOOl         08101 12006 • 07131 12009
                    AmeriCorps - Formula                   06AFHMOOOl         08101 12006 . 07131 12011
                    Administrative                         07CAHMOOOl         01 101 12007 ·12131 12009
                    Program Develop. Assist. & Training    08PTHMOOOl         01 101 12008 ·12131 12010
                    Program Develop. Assist. & Tra ining   05PTHMOOOl         01 101 12005 · 12131 12007
                    Disability Placement                   08CDHMOOOl         01 101 12008 · 12131 12010
                    Disability Placement                   05CDHMOOOl         01 101 12006·12131 12008
                    Education Awards Program               04ESHMOOOl         0910812004·0910712007

               We performed the agreed-upon procedures in accordance with attestation standards
               contained in generally accepted government auditing standards and those established
               by the American Institute of Certified Public Accountants. The procedures included
               obtaining an understanding of the Commission and its policies, procedures , grants, and
               subgrantees. They also included reviewing documents at the Commission and its
               subgrantees related to eligibility, claimed costs, matching costs , and compliance with
               laws, regulations , and the terms of grant agreements. The sufficiency of the procedures
               is solely the responsibility of the OIG. Consequently , we make no representation
               regard ing the sufficiency of the procedures either for the purpose for which this report
               was requested or for any other purpose.

               The accompanying schedules were prepared to present the costs claimed by the
               Commission and its subgrantees between August 1, 2006, and June 30 , 2009. The
               schedules were prepared from data submitted to the Corporation by the Commission on
               Financial Status Reports to comply with provisions of the grant agreements. The
               schedules are not intended to be a complete presentation of Commission finances in
               accordance with accounting principles generally accepted in the United States of
               America. We did not audit the schedules and , accordingly , we do not provide an opinion
               thereon .

                                                             3
As more fully described in the schedules, we have questioned costs amounting to
$21,499, including $15,386 in grant costs and $6,113 in education awards. A
questioned cost is: (1) an alleged violation of a provision of law, regulation , contract ,
grant, cooperative agreement, or other agreement or document governing the
expenditure of funds; (2) a finding that , at the time of testing , such cost was not
supported by adequate documentation; or (3) a finding that the expenditure of funds for
the intended purpose was unnecessary or unreasonable. The terms of the grant
agreements required that all specified supporting documents be retained in order to
receive payment from the Corporation.

We were not engaged to and did not conduct an examination, the objective of which
would be the expression of an opinion on internal controls or compliance . Accordingly,
we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported.

This report is intended solely for the use of the management of the Corporation and the
Commission, and should not be used by those who have not agreed to the procedures
or have not taken responsibility for the sufficiency of the procedures for their purposes.
However, the report is a matter of public record and its distribution is not limited.



1_ •. -<- __ -!I,,-WMPIt U
t-Wn~J&COiTIpany, P.c.
                                    ?, ,,<J,e
Rockville, Maryland
December 4, 2009




                                            4
                                       Corporation for National and Community Service
                                          Missouri Community Service Commission
                                           Consolidated Schedule of Award Costs



                                                                                               Questioned

Award No.                         Program             Approved           Claimed                         Education
                                                       Budget             Costs            Costs          Awards          Schedule
06ACHMO001                   AmeriCorps –
                             Competitive              $3,210,867       $2,378,149              -0-          $5,717           A
06AFHMO001                   AmeriCorps –
                             Formula                    4,451,398       3,114,220             -0-              396           B
07CAHMO001                   Administrative               767,659         600,786         $8,768                -0-          C
08PTHMO001                   Program Develop.
                             Assist. & Training           227,893         122,820           1,199                   -0-      C
05PTHMO001                   Program Develop.
                             Assist. & Training           292,216         119,445              -0-                  -0-
08CDHMO001                   Disability
                             Placement                    104,843           62,494            619                   -0-      C
05CDHMO001                   Disability
                             Placement                    107,155         102,699              -0-                  -0-
04ESHMO001                   Education Award
                             Program                         4,800          4,8001          4,800                   -0-      D

   Total                                              $9,166,831       $6,505,413        $15,386            $6,113




           1
               The funds were drawn down, but were not reported on a Financial Status Report (see Finding No. 3).

                                                                 5
                                                                               Schedule A

                        Missouri Community Service Commission
                       Schedule of Claimed and Questioned Costs
                    Award No. 06ACHMO001 (AmeriCorps - Competitive)



                                                                 Questioned
                                 Approved          Claimed       Education
Subgrantee                        Budget            Costs         Awards         Notes

Partnership for Youth, Inc.      $3,005,727       $2,298,799        $5,717          1

Other Subgrantees                   205,140           79,350            -0-

  Total                          $3,210,867       $2,378,149        $5,717



NOTES:

   1. A review of 34 member files at Partnership for Youth, Inc. disclosed that
      two members were given partial education awards based on compelling
      circumstances without sufficient supporting documentation to justify their early exits
      from the program or their eligibility for the awards. 45 CFR § 2522.230 states that an
      AmeriCorps program may release a participant from completing a term of service for
      compelling personal circumstances as demonstrated by the participant and
      documented by the program. As a result, we have questioned education awards in
      the amount of $1,551 in program year 2006-07 and $4,166 in program year 2007-08
      made to the two members (see Finding No. 2).




                                           6
                                                                             Schedule B

                       Missouri Community Service Commission
                      Schedule of Claimed and Questioned Costs
                    Award No. 06AFHMO001 (AmeriCorps - Formula)


                                                               Questioned
                                  Approved        Claimed      Education
Subgrantee                         Budget          Costs        Awards        Notes

Jumpstart for Young Children     $ 769,578      $ 549,892          $396          2

Other Subgrantees                 3,681,820       2,564,328          -0-

  Total                          $4,451,398     $3,114,220         $396



NOTES:

   2. A review of 25 member files at Jumpstart for Young Children disclosed that one
      member was given a partial education award based on compelling circumstances
      without sufficient supporting documentation to justify the member’s early exit from
      the program or eligibility for the award. 45 CFR § 2522.230 states that an
      AmeriCorps program may release a participant from completing a term of service for
      compelling personal circumstances as demonstrated by the participant and
      documented by the program. As a result, we have questioned the education award
      of $396 made to the member during program year 2007-08 (see Finding No. 2).




                                         7
                                                                                      Schedule C

                            Missouri Community Service Commission
                           Schedule of Claimed and Questioned Costs




                                                    Approved      Claimed      Questioned
Grant Awards                                         Budget        Costs         Costs         Notes

Administrative (Award No. 07CAHMO001)               $ 767,659    $600,786        $ 8,768          3

Program Development
Assist. & Training (Award No. 08PTHMO001)             227,893      122,820          1,199         3

Disability Placement (Award No. 08CD HMO001)          104,843       62,494            619         3

  Total                                             $1,100,395   $786,100        $10,586




NOTES:

      3. Membership dues paid to an organization involved in lobbying activities were
         charged to the Corporation grants. OMB Circular A-87, Attachment B.24 states that
         “[t]he cost of certain influencing activities associated with obtaining grants, contracts,
         cooperative agreements, or loans is an unallowable cost.” More specifically, Section
         503(b) of the appropriation act for the Department’s of Labor, HHS, Education and
         Related Agencies, the appropriation act by which the Corporation is funded, states
         that “[n]o part of any appropriation contained in this Act shall be used to pay the
         salary or expenses of any grant or contract recipient, or agent acting for such
         recipient, related to any activity designed to influence legislation or appropriations
         pending before Congress or any State legislature”. We have questioned $10,586 in
         costs ($2,660 in Program Year 2006-07, $2,979 in Program Year 2007-08, and
         $4,947 in Program Year 2008-09) the Commission charged to the grants during the
         review period because such activities are unallowable based on language in OMB
         Circular A-87 and the Corporation’s Appropriation Act (see Finding No. 1).




                                                8
                                                                                                   Schedule D

                             Missouri Community Service Commission
                            Schedule of Claimed and Questioned Costs
                        Award No. 04ESHMO001 (Education Awards Program)


                                                Approved            Claimed        Questioned
  Grant Award                                    Budget              Costs           Costs    Notes

Education Awards Program                          $4,800             $4,8002           $4,800         4




NOTES:

        4. We have questioned the costs because the Commission did not have supporting
           documentation to justify drawing down the funds and was aware at the time that the
           funds could not be used for the purpose intended. OMB Circular A-102, Subpart 2.a.
           Grants and Cooperative Agreements with State and Local Governments, states in
           part that agency methods and procedures for transferring funds shall minimize the
           time elapsing between the transfer to recipients of grants and cooperative
           agreements and the recipient’s need for the funds (see Finding No. 3).




  2
      The funds were drawn down, but were not reported on a Financial Status Report (see Finding No. 3).

                                                        9
                               COMPLIANCE AND INTERNAL CONTROLS

We applied the agreed-upon procedures to the Consolidated Schedule of Award Costs that
summarizes the costs incurred by the Commission for the Corporation’s awards listed on
Page 5 of this report.

                                            COMPLIANCE

Compliance with Federal laws, regulations, and the provisions of the grant awards is the
responsibility of the Commission management. As a part of our review, we performed
procedures to test compliance with certain provisions of laws, regulations, and the terms
and conditions of the grant awards. However, our objective was not to provide an opinion
on overall compliance with such provisions. Accordingly, we do not express such an
opinion. The results of the application of the agreed-upon procedures disclosed the
following instances of noncompliance that are required to be reported
under generally accepted government auditing standards applicable to attestation
engagements.

Finding No. 1 – Membership Dues Were Paid to an Organization Involved in Lobbying
Activities.

The Commission charged to its Corporation grants the costs incurred for membership in the
America’s Service Commissions (ASC), an organization involved in lobbying activities.

Section 503(b) of the Labor/HHS Appropriations Act for fiscal years 2007 through 2009,
under which the Corporation is funded, specifically states that “[n]o part of any appropriation
contained in this Act shall be used to pay the salary or expenses of any grant or contract
recipient, or agent acting for such recipient, related to any activity designed to influence
legislation or appropriations pending before the Congress or any State legislature.” In
addition, OMB Circular A-87, Attachment B.24 states that “[t]he cost of certain influencing
activities associated with obtaining grants, contracts, cooperative agreements, or loans is an
unallowable cost.”

We obtained the following assertions from ASC’s website:

       As a Member of America’s Service Commissions, you will be supporting
       our efforts to build an organization designed to:

              Provide one unified national voice for Commissions on critical issues
              Educate members of Congress and state legislators on the value of
               volunteer programs
              Implement a national public recognition program on community
               volunteerism
              Coordinate peer-to-peer learning opportunities for staff and
               Commissioner.




                                            10
         You will be supporting America’s Service Commissions’ efforts to pass
         legislation designed to:

                 Provide a tax-free education award and living allowance
                 Streamline programs providing grant awards
                 Provide the basic Commission funding necessary for operating
                 Reduce the match necessary for federal funds
                 Provide for portability of the education award.

The above statements imply that at least some portion of the organization’s activities is
devoted to influencing legislation before Congress or State legislatures for its members.

Recommendation

We recommend that the Corporation:

  1.a.       Determine the extent of the organization’s involvement in lobbying activities
             designed to influence legislation or appropriations pending before the Congress or
             any State legislature.

  1.b.       Disallow and recover the portion of the $10,586 in questioned membership fees
             charged to the grants that supported the organization’s lobbying activities.

  1.c.       Instruct all State Commissions to not charge Corporation grants for the portion of
             ASC’s membership dues that support lobbying activity.

Corporation’s Response

The Corporation agreed with the recommendations and has discussed the services provided
by ASC with the grantee and representatives of ASC. ASC contends that it is not
substantially engaged in lobbying and was not aware that it should disclose the portion of
the organization’s dues used for lobbying so that members could ensure that no prohibited
lobbying activity would be billed to Federal funds. The Corporation stated that, in audit
resolution, it will determine what portion, if any, of the $10,586 in membership dues is
attributable to lobbying and will disallow that amount. The Corporation indicated that it will
also issue guidance to all State Commissions to obtain disclosures of the portion of fees
attributed to lobbying from any membership fee-based association prior to paying dues so
that the Commissions can certify compliance with anti-lobbying restrictions.

Commission’s Response

The Commission stated that it is discussing this matter with the Corporation and will
implement corrective actions based on the Corporation’s guidance.

Auditor’s Comments

Although ASC contends that it is not substantially engaged in lobbying, the appropriations
acts for fiscal years 2007 through 2009 specifically state that “[n]o part of any appropriation
contained in this Act shall be used to pay the salary or expenses of any grant or contract

                                              11
recipient, or agent acting for such recipient, related to any activity designed to influence
legislation or appropriations pending before the Congress or any State legislature.” We
believe the Corporation should annually determine the amount of ASC lobbying effort and
provide the percentage of membership dues to withhold from claimed cost in the guidance
to State Commissions.

Finding No. 2 – Member Compliance Requirements Were Not Met for Compelling
Personal Circumstances, Background Checks and Member Contracts.

We reviewed 60 subgrantee member files and identified three areas with exceptions, as
described below:

      Education Awards – Two subgrantees improperly certified education awards for
       three members. The members were granted partial education awards for reasons
       that were not documented as being requested by the members and did not meet the
       compelling personal circumstances criteria outlined in the law and regulations.
       Section 139 of the National and Community Service Trust Act of 1993 and 45 CFR §
       2522.230 state that an AmeriCorps program may release a participant from
       completing a term of service for compelling personal circumstances as demonstrated
       by the participant and documented by the program.

       In one case, the member’s file indicated that the member was released early in order
       for her to accept another AmeriCorps Program position at Teach for America. The
       only documentation in the file was a letter to the other program sponsor praising the
       past service of the member. In the second case, there was a letter in the member’s
       file stating that the member was released due to illness and that she was being given
       a partial education award. In the third case, the member’s file indicated that the
       member was in a car accident and incapacitated for a period of time, which caused
       financial hardship and required the member to drop classes at the local university.
       However, in each of these cases, there was no documentation in the files to
       demonstrate that the members requested partial education awards or had provided
       doctor’s statements or other evidence to justify the awards.

       We question three education awards totaling $6,113 for improper use of compelling
       personal circumstances.

      Criminal Background Checks – One subgrantee did not obtain criminal background
       checks on six members prior to their first contact with children.

       45 CFR § 2540.203: When must I conduct a State criminal registry check and a
       NSOPR check on an individual in a covered position? states “(a) The State criminal
       registry check must be conducted on an individual who enrolls in, or is hired by, your
       program after November 23, 2007.” and “(b) The NSOPR check must be conducted
       on an individual who is serving, or applies to serve, in a covered position on or after
       November 23, 2007.”

       § 2540.204: What procedures must I follow in conducting a National Service Criminal
       History Check for a covered position? states “grantees must ensure that an
       individual, for whom the results of a required State criminal registry check are
       pending, is not permitted to have access to children, persons age 60 and older, or


                                           12
    individuals with disabilities without being accompanied by an authorized program
    representative who has previously been cleared for such access.”

    For the six members identified in our sample, the results of the background checks
    were received 1 to 21 days after the members started their service as noted below.

                                             Date Background     Number of Days
       Member          Start Date            Check Received      After Start Date

           1           09/02/2008              09/04/2008               2
           2           10/14/2008              10/16/2008               2
           3           08/15/2007              08/16/2007               1
           4           09/10/2007              09/25/2007              15
           5           11/01/2007              11/09/2007               8
           6           09/21/2006              10/12/2006              21

    The program director responded that its AmeriCorps members rarely have contact
    with children in the absence of other host site staff. Also, she noted that all
    background checks in question were completed and were clear of any questionable
    findings. For these reasons, we have not questioned the members’ living allowance
    and education awards. The Kennedy Serve America Act, effective October 1, 2009,
    requires completion of background checks prior to member participation in any
    program.

   Member Contracts and Forms – One subgrantee did not require a member to sign
    the member contract prior to charging time to the program and did not enter
    enrollment and exit information into the Web-Based Reporting System for four
    members within 30 days of starting or ending their service.

    The 2008 AmeriCorps Special Provisions, Section IV.C.1. Notice to the Corporation’s
    National Service Trust, states in part that the grantee must notify the Corporation’s
    National Service Trust within 30 days of a member’s selection for, completion of,
    suspension from, or release from, a term of service. Section IV.D.2. Member
    Contracts, states in part that the grantee should ensure that the contract is signed
    before commencement of service so that members are fully aware of their rights and
    responsibilities.

    The details relating to the instances of late forms are summarized below.

                                    Date of Exit/         Date           Number of
    Member         Form             Enrollment          Submitted        Days Late

       1       Exit Form            11/30/2008          02/05/2009              36
       2       Enrollment Form      12/10/2008          02/05/2009              26
       3       Enrollment Form      09/10/2007          10/17/2007               6
       3       Exit Form            11/30/2007          01/24/2008              24
       4       Exit Form            12/31/2006          04/11/2007              70


    The program director responded that the member identified as serving prior to
    signing the member contract had previously signed a member contract on October

                                        13
       11, 2006, but it was lost. On October 30, 2006, the member signed a new contract.
       With regard to late submission of the forms, the program director responded that the
       late enrollments were simply an oversight. As for the late exit forms, the program
       director stated that the members had “abandoned” their positions and did not
       promptly respond to the program staff inquiries regarding their program status.

Recommendations

We recommend that the Corporation:

   2.a. Resolve the questioned education awards totaling $6,113, and recover disallowed
        costs.

   2.b. Verify that the Commission develops procedures to ensure that subgrantees
        maintain sufficient documentation to justify partial education awards given to
        members for compelling personal reasons, including a requirement to obtain a
        doctor’s statement or other evidence to justify the awards.

   2.c. Verify that the Commission provides assistance to the subgrantees in developing
        control procedures to ensure member background checks are completed before
        starting service.

   2.d. Verify that the Commission provides assistance to the subgrantees in developing
        control procedures to ensure member contracts are signed before members begin
        earning service hours.

   2.e. Verify that the Commission provides assistance to the subgrantees in developing
        control procedures to ensure required member enrollment and exit forms are
        completed and submitted in a timely manner.

Corporation’s Response

The Corporation agreed that the member who left the program early to join Teach for
America should not have received a pro-rated award; as a result, the $4,166 pro-rated
education award must be repaid to the National Service Trust. The Corporation concluded
that the two remaining members were exited for legitimate reasons, but the programs did
not retain all appropriate documentation justifying the award for personal and compelling
reasons.

The Corporation agreed with the recommendation that the files should contain sufficient
documentation to support the pro-rated awards, but did not agree with the recommendation
to require a doctor’s statement as proof of injury or illness. The Corporation stated that the
Commission must work with the program to ensure it maintains appropriate documentation.

Regarding background checks, the Corporation stated that the Commission will be required
to ensure its programs follow the requirements and maintain appropriate documentation that
demonstrates members are supervised as needed until the program obtains the results of
background checks. Finally, the Corporation stated that it will review the Commission’s
policies, procedures, and best practices to ensure the audit recommendations are
addressed.


                                            14
Commission’s Response

The Commission agreed with the finding regarding the member who was exited early in
order to serve with Teach for America. However, it did not agree with the finding regarding
the member who was exited early for compelling reasons due to an illness and the member
exited early due to an injury. The Commission maintains that the program directors’
decisions to release these members are supported by the regulations.

Regarding the criminal background checks, the Commission agreed with the finding and
stated that the subgrantee agrees to do a better job of documenting timesheets to denote
whether the members are accompanied by school staff when in the presence of children
and other vulnerable populations. In addition, the Commission outlined its plans to
implement the recommendations related to background checks, member contracts, and
enrollment and exit procedures.

Auditor’s Comments

The Corporation and Commission responses were generally responsive to the findings and
recommendations; however, they did not adequately address the issue related to the type of
documentation required to support the program’s decision to exit members early with pro-
rated education awards. In cases involving illness or injury to members, we contend that a
doctor’s statement (not to include medical records) would lend greater credibility to the
program’s decision that a member is unable to serve and should be exited from the program
early and given a pro-rated education award.

Finding No. 3 – Grant Funds Were Inappropriately Drawn Down.

The Corporation Grants Officer requested the Commission draw down funds in order for the
grant to be closed out. The Grants Officer was unaware that no members had been
recruited for the grant. Although the $4,800 in grant funds was returned while our review
was in process, we have questioned the costs because the Commission did not have
supporting documentation to justify drawing down the funds. The Commission was aware at
the time of the draw down that the funds could not be used for the purpose intended. It
occurred because of the misunderstanding between the Grants Officer and the Commission.

OMB Circular A-102, Subpart 2.a. Grants and Cooperative Agreements with State and Local
Governments, states in part that agency methods and procedures for transferring funds
shall minimize the time elapsing between the transfer to recipients of grants and cooperative
agreements and the recipient’s need for the funds.

The Commission was awarded an Education Award-only Program grant (Grant No.
04ESHMO001) of $2,400 on September 24, 2004, which was amended on July 10, 2006, to
provide an additional $2,400, for a total of $4,800. The executive director stated that the
Commission had been unsuccessful in recruiting members for the program and, as a result,
it was unable to use the funds.

On June 26, 2009, the Commission received an e-mail message from the Office of Grants
Management requesting the Commission to draw down the $4,800 in funds from Grant No.
04ESHMO001 for closeout purposes. Based on other e-mail messages in the files, the
draw down occurred on July 8, 2009. On October 5, 2009, the executive director sent an e-
mail to the Office of Grants Management, stating that this was an education award-only

                                           15
program grant and that the Commission had been unsuccessful in recruiting members. She
also stated in the e-mail that the Commission could not spend the money; however, at that
point, the Commission had already drawn down the funds.

At the request of the Office of Grants Management, the Commission processed a check on
November 13, 2009, for $4,800 and returned the funds. The grant was shown as closed in
the eGrants system on November 19, 2009. These funds should not have been drawn
down, but de-obligated through the eGrants system and returned to the U.S. Treasury.

Recommendation

 3. The Corporation should ensure that training is provided to the Commission and Office
    of Grants Management personnel on the proper and timely closing out of grants for
    which some of the authorized funds have not been drawn down and cannot be used
    for the purpose intended.

Corporation’s Response

The Corporation agreed that an error was made in this case, but stated that its existing
training curriculum on the closeout process, presented at regularly scheduled conferences
and to staff in training sessions, is sufficient to address this recommendation.

Commission’s Response

The Commission agreed with the finding and stated that, in the future, it will ensure that
there is a complete understanding between the Corporation and the Commission regarding
unused funds and will provide follow up and clarification of the intent to utilize those funds.

Auditor’s Comments

The responses by the Corporation and Commission are adequate to address the
recommendation.




                                            16
                                      INTERNAL CONTROLS

Commission management is responsible for establishing and maintaining internal controls.
In fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal control policies and procedures.
The objective of internal controls is to provide management with reasonable, but not
absolute, assurance that assets are safeguarded against loss from unauthorized use or
disposition. Internal controls also provide assurance that transactions are executed in
accordance with management’s authorization and recorded properly to permit accurate
preparation of financial reports. Because of the inherent limitations in any system of internal
controls, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the internal controls to future periods is subject to the risk that
procedures may become inadequate due to changes in conditions or that the effectiveness
of the design and operation of policies and procedures may deteriorate. In applying the
agreed-upon procedures, we noted the following internal control weakness.

Finding No. 4 – Incorrect Data Was Reported on a Final Financial Status Report.

The Commission did not have an effective system in place for timely reconciliation of
expenditures, as reported on FSRs, with expenditures recorded in its financial management
system and to account for the amount of funds drawn down. As a result, we found a
significant variance between the actual expenditures and the expenditures reported on the
final FSR submitted for Grant No. 03ACHMO001 during the review period. The Commission
correctly reported the total Federal share of costs as $3,282,325; however, it reported the
recipient share of costs as $777,857; while the actual costs totaled $2,125,765, a difference
of $1,347,908.

A Commission representative stated that the error apparently occurred when some
employee picked up the wrong cumulative amount from a previous FSR. The error was not
detected and was carried forward to subsequent FSRs. He stated that four different
employees had prepared FSRs for this grant and that they did not maintain a spreadsheet of
earlier reported amounts.

The Code of Federal Regulations, (45 CFR § 2541.200), states that the financial
management system must be adequate to assure financial reporting is accurate, current,
and complete. In addition, the Corporation’s instructions for closing grants states that
grantees must make sure that the total federal expenditures recorded on the final FSR are
accurate, match the amount reported to HHS on the Federal Cash Transaction Report and
match the amount of funds drawn down from the HHS Payment Management System. Also,
the instructions state that without the reconciliation of these reports, the Corporation cannot
close out the grants. In this case, the Commission had not performed the required
reconciliations prior to submitting the final FSR.

Recommendations

We recommend that the Corporation:

  4.a.   Verify that the Commission develops effective control procedures to ensure that
         the expenditures reported on final FSRs and recorded in its financial management
         system are reconciled to (1) the amount reported to the HHS on the Federal Cash


                                              17
         Transaction Report, and (2) the amount of funds drawn down from the HHS
         Payment Management System.

  4.b.   Require the Commission to submit a corrected final FSR for Grant No.
         03ACHMO001.

Corporation’s Response

The Corporation agreed with the finding and stated that the error resulted from insufficient
review of data reported on the final FSR. It stated that it had verified that the final FSR has
been corrected. Also, the Corporation stated that it will ensure effective control practices
are implemented by the Commission and its staff is trained.

Commission’s Response

The Commission agreed with the finding. It stated that, as a control procedure, it maintains
a general ledger for each of its grants. The general ledger is reconciled with the Periodic
Expense Report and with the Federal Cash Transaction Report when completing the FSR.
Also, the Commission stated that the final FSR (03ACHMO001) has been corrected,
submitted and approved by the Corporation.

Auditor’s Comments

The actions taken and proposed by the Corporation and Commission are adequate to
address the finding and recommendations.




                                            18
             OBJECTIVES AND SCOPE OF AGREED-UPON PROCEDURES APPLIED

The objective of the agreed-upon procedures was to determine whether the Commission
expended Corporation-funded Federal assistance in accordance with applicable
requirements and to report resulting findings on compliance, controls, and questioned costs.

Leon Snead & Company, P.C. performed the procedures in accordance with attestation
standards contained in generally accepted government auditing standards and those
established by the American Institute of Certified Public Accountants. The procedures
included obtaining an understanding of the Commission and its policies, procedures, grants,
and subgrantees. They also included reviewing documents at the Commission’s offices and
its subgrantees related to eligibility, claimed costs, matching costs, and compliance with
laws, regulations, and the terms of grant agreements.

                     GRANT PROGRAMS COVERED BY THE PROCEDURES

During the period covered by this review, the Commission received approximately $9.2
million under eight Corporation grant awards and distributed most of the funds to
subgrantees. The majority of the subgrantees are nonprofit organizations. Approximately
$6.5 million of the amount awarded was claimed on Financial Status Reports. The grants
funded the programs listed below.



                                                 Funding      Claimed
Program                      Award No.          Authorized     Costs        Drawdowns

AmeriCorps -                 06ACHMO001         $3,210,867   $2,378,149     $2,378,146
Competitive
AmeriCorps - Formula         06AFHMO001          4,451,398    3,114,220      3,114,095
Administrative               07CAHMO001            767,659      600,786        538,901
Program Development          08PTHMO001            227,893      122,820        122,820
Assist. & Training
Program Development          05PTHMO001           292,216       119,445        111,183
Assist. & Training
Disability Placement        08CDHMO001            104,843        62,494         62,494
Disability Placement        05CDHMO001            107,155       102,699        102,699
Education Awards
Program                      04ESHMO001              4,800         4,800         4,800
  Totals Grants
    Administered                                $9,166,831   $6,505,413     $6,435,138


                                       BACKGROUND

The Corporation, pursuant to the authority of the National and Community Service Trust Act,
as amended, awards grants and cooperative agreements to State commissions and other
entities to assist in the creation of full- and part-time national and community service

                                           19
opportunities and programs . The Missouri Community Service Commission was established
in 1994. It consists of up to 25 members appointed by the Governor and confirmed by the
State Senate. It is part of the Department of Economic Development's Business and
Community Services Division. The Commission is responsible for administering grant funds
awarded by the Corporation to the State of Missouri.

The contents of this report were discussed with the Commission management and the
Corporation at an exit conference held on February 9, 2010. In addition, a draft of this
report was provided to the Commission and the Corporation for their comments on February
25, 2010. We have summarized their comments in the appropriate sections of this report ,
and have included their complete comments in Appendices A and B.



I - - , , <: . . .
~'ny, p. C .
                     ,,--= ""r'A '-"7 1,PC
Rockville , Maryland
December 4, 2009




                                         20
                       Consolidated Schedule of Questioned Costs


                                   Questioned Costs                     Funds Put to
 Recommendation            Unallowable         Unsupported               Better Use
      1.b                   $10,586
      2.a                                                                  $6,113
      3                                             $4,800



Questioned Cost means a cost that is unallowable because of:
   1. an alleged violation of a provision of a law, regulation, contract, grant, cooperative
       agreement, or other agreement or document governing the expenditure of funds;
   2. a finding that, at the time of testing, such cost is not supported by adequate
       documentation; or
   3. a finding that the expenditure of funds for the intended purpose is unnecessary or
       unreasonable.

Unsupported Cost means a cost that is questioned because at the time of the audit, such
   cost is not supported by adequate documentation. Unsupported costs are included in
   the total of unallowable costs.

Recommendation that funds be put to better use means a recommendation that funds could
be used more efficiently if management takes actions to implement and complete the
recommendation, including:
   1. reductions in outlays;
   2. de-obligation of funds from programs or operations;
   3. withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
       bonds;
   4. costs not incurred by implementing recommended improvements related to the
       operations of the establishment, a contractor or grantee;
   5. avoidance of unnecessary expenditures noted in pre-award reviews of contract or
       grant agreements; or
    6. any other savings which are specifically identified.




                                           21
                              APPENDIX A

Corporation for National and Community Service’s Response to Draft Report
                                      NATIONAL&:
                                      COMMUNITY
                                      SERV ICE rnj
To:

From:                                              dYlIlts Management

Date:

Subject:         Response to OlG Draft of Agreed-Upon Procedures of Grants Awarded to the
                 Missouri Community Service Commission


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report afthe Corporation's grants awarded to the Missouri Community Service
Commission (MCSC). The Corporation reviewed the OlG report, met with the OlG Audit
Manager and the grantee and reviewed the MCSC draft response to the audit. We are addressing
all draft findings at this time.

Finding 1: Membership Dues Were Paid to an Organization Involved in Lobbying
Activities.

The auditors recommend that the Corporation:

I.B. Detennine the extent of the organization's involvement in lobbying activities designed to
influence legislation or appropriations pending before the Congress or any State legi slature.

l.b. Disallow and recover the portion of the $10,586 in questioned membership fees cbarged to
the grants that supported the organization's lobbying activities.

l.c. Instruct all State Commissions to not charge Corporation grants for the portion of America's
Service Commission's membership dues that support lobbying"acts.

      Corporation Response: The auditors questioned membership dues in a professional
      organization, America's Service Commissions (ASC), that the commission charged to
      Corporation grants because the organization website appeared to indicate ASC is involved in
      lobbying activities. The Corporation agrees with the recommendations and discussed the
      services provided by ASC with the grantee and representatives of ASC . ASC contends that it
      is not substantia1ly engaged in lobbying and was not aware that it should disclose the portion
      of the organization's dues used for lobbying SO that members could ensure that no prohibited
      lobbying activity would be billed to Federal funds. In audit resolution, the Corporation will
      determine what portion, if any, of the $[ 0,586 in membership dues is attributable to lobbying
   and will disallow that amount. The Corporation will also issue guidance to all Conunissions
   to obtain disclosures of the portion of fees attributed to lobbying from any membership fee-
   based association prior to paying dues so that the Commissions can certify compliance with
   anti-lobbying restrictions.

Finding 2: Member Compliance Requirements Were Not Met for Compelling Personal
Circumstances, Background Checks and Member Contracts.

The auditors recommend that the Corporation:

2.a. Resolve the questioned education awards totaling $6,11 3, and recover disallowed costs.

2.b. Verify that the Commission develops procedures to ensure that subgrantees maintain
sufficient documentation to justify partial education awards given to members for compelling
personal reasons, including a requirement to obtain a doctor's statement or other evidence to
justify the awards.

2.c. Verify that the Commission provides assistance to the subgrantees in developing control
procedures to ensure member background checks are completed before starting service.

2.d. Verify that the Commission provides assistance to the subgrantees in developing control
procedures to ensure member contracts are signed before they began earning service hours.

2.e. Verify that the Commission provides assistance to the subgrantees in developing control
procedures to ensure required member enrollment and exit forms are comp!eted and submitted in
a timely manner.

    Corporation Response: The auditors questioned education awards of $6,113 for three
    members exited with pro-rated education awards for personal and compelling circumstances
    because the programs did not maintain sufficient supporting documentation to justify pro-
    rated education awards. The Partnership for Youth (PFy) exited two members and
    Jumpstart for Young Children (JYC) exited one member with insufficient documentation.
    The audit report noted the file contained letters from the program explaining that one PFY
    member was exited with a prorated education award of$4,166, to join Teach for America
    and a second member was exited with a prorated award ofS,l,551, due to a serious illness.
    The file for the N C member showed the member exited with a prorated award of$397, due
    to injury in a car accident.

    The Corporation concurs with the auditor that the member who left PFY to join Teach for
    America should not have received a pro-rated award . Accordingly, $4,166 must be repaid
    to the National Service Trust. The Corporation's review concluded that the two remaining
    members were exited for legitimate reasons, illness and injury, but the program did not
    retain all appropriate documentation justifying the award for personal and compelling
    reasons. The Corporation concurs with the auditor's recommendation that the file should
    contain sufficient supporting documentation for the pro·rated award, but we do not concur
    with the recommendation to require a doctor's note. The regulations do not require that a
    medical record be obtained as proof of injury or i11ness. Program managers may detennine
    when such documentation is required on a case-by-case basis. The Corporation allows the
    education awards for the two members exited for illness and injury because the reasons meet
    the requirements under the regulations. However, the commission must work with the
    program to ensure it maintains appropriate documentation. The Corporation has established
    a debt of$4,166 for the improperly certified education award.

    The Corporation agrees with the intent of Recommendation 2c, but not the recommended
    action. Programs are required to complete the National Sex Offender Predator Registry
    before members because service, but are not required to obtain the results of the state
    background checks before members begin service. Background checks can sometimes take
    several weeks. Members may begin service as long as they are supervised at all times when
    they have contact with vulnerable populations until the program receives the background
    check results. We will require the Commission to ensure its programs follow the
    requirements and maintain appropriate documentation that demonstrates members were
    supervised as needed until the program obtained the background checks.

    We agree with Recommendations 2d and 2e and will review MCSC's policies, procedures
    and best practices to ensure the audit recommendations are addressed. MCSC must provide
    assistance to subgrantees to develop control procedures to obtain member signatures on
    contracts signed prior to service and complete enrollment and exit forms in timely. The
    Corporation will also ensure MCSC includes these issues in its site monitoring reviews.

Finding 3: Grant Fonds Were Inappropriately Drawn Down,

The auditors recommend that the Corporation ensure training is provided to the Commission and
Office of Grants Management personnel on the proper and timely closing out of grants for which
some of the authorized funds have not been drawn down and cannot be used for the purpose
intended.

     Corporation Response: The Corporation agrees that personnel made an error in this case
     which resulted in the Commission drawing down $4,800 more than it was entitled to in its
     Education Award Program based on the number of members enrolled. However, the audit
     itself confinned the Corporation and Commission recognized the error and corrected it
     during the closeout process. The costs have already been reimbursed to the Corporation,
     reflected in eGrants and deposited with the U.S. Treasury. The Corporation's existing
     training curriculum on the cJoseout process, presented at regularly scheduled conferences,
     and to staff in training sessions is sufficient to address this recommendation.

Finding 4: Incorrect Data Was Reported on a Final Financial Status Report.

The auditors recommend that the Corporation:

4.a. Verify that the Commission develops effective control procedures to ensure that the
expenditures reported on final FSRs and recorded in its financial management system are
reconciled to (I) the amount reported to the HHS on the Federal Cash Transaction Report, and
(2) the amount of funds drawn down from the HHS Payment Management System.

4.b. Require the Commission to submit a corrected final FSR for Grant No. 03ACHMOOOI.

      Corporation Response: The auditor found that the final FSR to Grant No. 03ACHMOOI
      had significantly understated the recipient share of costs. The Corporation concurs with the
      auditor that the error resulted from insufficient review of data reported on the final FSR.
      The Corporation will review MCSC's accounting procedures to ensure verification that
      amounts reported in the federal financial reports are based on its financial management
      system and variances are reconciled and reviewed by accounting manager or financial
      officer. The Corporation verified that the final FSR has been corrected. It remains fOT the
      Corporation to ensure effective control practices are implemented by the Commission and
      staff are trained.

cc:     William Anderson, Acting Chief Financial Officer for Finance
        Frank Trinity, General Counsel
        Lois Nernbhard, Acting Director, AmetiCorps State and National
                          APPENDIX B

Missouri Community Service Commission’s Response to Draft Report
                                                         MISSOURI COMMUNITY
                                                          SERVICE COMMISSION
                                                To Strengthen MISSouri Communities Through Vo/umeerism and Service.

                              March 23, 2010



                              Mr. Sloan Axenfeld
                              Assistant Inspector General for Audit
                              Office of Inspector General
                              1201 New York Avenue, NW, Suite 830
         EXECI.ITIV<          Washington, DC 20525
          omECToR
      Linda Thompson
                              Dear Mr. Axenfeld:
              CHA IR
        Angela StifJler       Enclosed with this letter, you will find the Missouri Community Service Commission's (MCSC)
                              response to the Office of Inspector General's draft report on the Agreed-Upon Procedures for
        VICE CHA.1R           Corporation for National and Community Service grants awarded to the MCSC for the period
    SlanJey Whitehurst        08/0 IflOO6 through 0613012009.
   COMMISSIONERS              On behalf of the MCSC, thank you for the opportunity to respond to the findings outlined in the
    Andres Dominguez          OIG Draft Report. An electronic version of this report was also sent to you on Man::h 23, 2010.
          Linda Duffy
           Jane Evans         If you require additional infonnation or have questions, please feel free to contact me at (573) 751·
 U Gov. Peter Kinder          5012.
  (Belh Peters, proxy)



                              ~
      DES£. Director
(Cindy Heislen, proxy)
          MaryPOIter
       TameAa Randle
        Jolene Schulz
                           t/Z~n
                              Executive Director
      Janis VanMeter
    Forrest Miller, Jr.       cc: Lois Nembhard, AmeriCorps State and National Acting Director
      Lori Rasmussen              Peg Rosenberry, Director of Grants Management
   Nina North Murphy              Clair Moreno, Office of Grants Management (OGM), Sr. Grants Officer
    Randall McArthur              Rick Sampson, Office of Inspector General (010)
         John Albright            Sallie Hemenway. Director of Opcrations, Missouri Departmem of Economic Development
       James 0 'Mara              Jessie Morris. Auditor, Leon Snead & Company
      Amanda Shelton              Stanley Whitehurst, MCSC Chair
        Elaine Powers

       EX-OFFIOOS
Michael Laverty, CNCS
   Erika Brandl, DESE

                                                   301 West High Sireet, HST 770· Jeffenon City MO 65102
                                               P/wn, (5 73) 751 - 7488; Fax (573) 516 - 0463; TTY: (800) 735-1966
                                                   Email: mcsc@.dedmo.gQV: Website: W'ww.movolullleers.org

                                                                              MIssion
                          The Missouri Community Service Commission (MCSC) connects Missourians ofall ages and bacJcgroundJ in on
                              effort 10 improve unmet community needs through direct and langlble seMlice. The MCSC seMies as the
                           adminiSlrator lor AmeriCarps Stale!unding in Missouri by awarding manelary grants and providing technical
                                                                    assistance and support.
    Missouri Community Service Commission




         Missouri Community Service Commission
              ______~(_ M_C_
                           S_C.)~____________




                       Response to 01 G Draft Audit for period
                           08/01/2006 to 06/30/2009


(

                                   Total Questiooed Costs:                 $21 ,499

                                   Breakdown of Questioned Costs:
                                           Unallowable                     $10,586
                                           Ineligible Education Awards     $6,11 3
                                           Unsupported Costs               $ 4,800




                               Prepared by: Unda Thompson, MCSC executive Director
                                                      3/'13/2010



    This report was compiled in response to an audit conducted by leon Sneed & Company Jocated at 416 Hungerford
    Drive, Suite 400, Rockville, Maryland 20850 at the request of the Office of Inspector General located at 1201 New
                                  York Avenue, NW, Suite 830, Washington, DC 20525.

                                                             2
    Missouri Community Service Commission

          FindiDg No. 1 - Melllbenhip Dwes were paid to a. orgaaiutio. iDvolved illiobbyiwg activities.
(
           Auditon Recommendations:
           The Missouri Community Service Commission (MCSC) is discussing this matter with the Corporation and
           will implement corrective actions based on the Corpondion' s guidance.

           In addition, the MCSC would like to present the foUowing examples demonstrating the relationship
           between MCSC and America's Service Commission (ASC)

               •     Commissiower TraiJliDg: In the past, the MCSC requested ASC ' s assistance in providing
                   . commissioner training. The training detailed commissioner roles and responsibilities. A segment of
                     the lraining addressed commonalities and variations among state commissions in that commissioner
                     roles and responsibilities are very similar across the board but organizational structure may vary
                     depending on the location of the commission. (Le. State Agency or Non-Profit)

               •    Legislative UpJates: On an ongoing basis., ASC updates State Commissions on legislation
                    affecting AmeriCorps. They serve as the entity that gathers infonnation and disseminates that
                    information to State Commissions.

               •    State Commission Tecluuca. Assistaace: ASC serves to provide best practices to state
                    commissions. One venue is the Resource Center located on the Corporation's website.

    FiDdiac No.l- Me.ber c:o.pli...... req1linlDew1l were .ot met tOr a-IptIIiac ~ cira ....W"f'!s
    btlckgro.... dteekI ud. .ember CHtradL

           •   Ed.cation Awards: Two sub grantees improperly certified education aw~ for three members.

               A. The Commission agrees with the finding regarding the member who was _            early in order to
                  serve with Teach for America. The sub--grantec failod to follow proper protocol and procedures.
                  The su~grantee should have contacted the State Commission and arranged for a transfer. The
                  executive director has been in contact with the sub grantee regarding this matter and the sub grantee
                  agn:es that this was on oversight and that it will oot happen again.

                    Even though the sub grantee handled this transaction improperly, the commission feels this was an
                    isolated case and not typical of this sub-grantee's performance. The member in question served
                    from September 2007 through June 2001 and """ "exited with ........ awonI". The member was
                    very close to c:ompIeting the 1700 bows of savia: as outlined in the sigDexI member COIlInId
                    However, the member wanted to pursue a career in education and upon learning ofan organi7lltion
                    that could increase the potential to become a teacher, requested a position with Teach for America,
                    • National Savice I'Iognun. The member .... a=pIed by Teodo for America but bad to act
                    quickly in order to meet the stringent pla<emcnl timcline as set forth by Teach for America. In an
                    effort to accommodate the member and Teach for America, the sub-grantee allowed the member to
                    end the tenn of service early.

                    The su~ sbouId have C()Uacted the MCSC to ornnge for. b _ insIead of exiting the
                    member early. Considering that the member did continue service with another AmeriCorps

                                                             3
        Missouri Community SeNice Commission

                      program, the MCSC requests consideration on beha1f of the su~grantee and the member and allow
                      the member access to the education award.
    (
                  B. The Commission does not agree with the findings regarding the members who were exited for
                     compelling circumstances; namely illness and injury.

                       A determination was made by both the program director and the members in that the members were
                       not able to serve due to illness. In ODe case, allowing the member to return to service would have
                       exposed others to a contagious staphylococci infection. In the other case, the member was
                       hospitalized and was unable to drive a car after being released from the hospital. The program
                     . directors' decisions to release these members for compelling circumstances is supported by
                       AmeriCorps Regulations §2522.230 "(A) A participant's disability or serious illness;"

                      The following documentation is attached:

                          •   Affidavit from the Partnership For Youth member

                          •   Exit letter from the Jumpstart member

                          •   Letter from the Partnership For Youth member with staph infection



              •   Crimio" BackgrollJld Checks: One sub-grantee did not obtain criminal background checks on six
                  members prior to their first contact with children.

'.                The Commission agrees with this finding. The sub-grantee has been contacted by MCSC's executive
                  director and the response from the sub-grantee is as follows:

                  AmeriCorp$ Members rarely have contact with children in the absence of other Irost site staff. All
                  Members complete AmeriCorps program orientation and specific site training/orientation prior to the
                  initiation of service; however, the site training is naJ always denoted on the timesheets clearly. Most
                  Members document the services prollided without a denotation as to whether or not they are being
                  shadowed or assisted by host site stajJ Three of the six Members in question abolle hod background
                  checks completed in less than two days. One of the members noJed prelliously had a background check
                  completed within less than one yeOI' prior to her start dale. Because her Mort dote was so close to the
                  one year annillersary of the check. the program elected to TII1I a new bod:ground check in addition to
                  having lhe previOllS check. The stqfffailed 10 place lhe bocJcground check in lhe Member file, but did
                  retain the documenJ in another file. The check ha.r now been added to the Member file. Finally, the
                  program notes that all background checks in question were completed and were clear of any
                  questionable finding3.

                  The sub-grantee has vowed to ensure that all background checks are conducted and placed in the
                  appropriate member file. She also agrees to do a better job of documenting timesbeets; denoting
                  whether or not the member is aa:ompanied by school staff when in the presence of children and other
                  vulnerable populations.




\                                                             4
    Missouri Community ServIce Commission

              o   The Missouri Department of Economic Development (OED) follows a set of Standard Operating
                  Procedures which were last updated in 2009. DED Administration is trained to follow the attached
(
                  procedures:

                       • Administrative Document Flow
                       •   Admin CR JV internal Control

                       • Admin DocumenJ Definitions
                       • Admin Purchasing
                       •   Admin Quick Reference

                       • Admin Transaction Cycle
           4b. Require the Commission to submit a corrected final FSR ror Grant No. 03ACHMOOOI .

           The final Financial Status Rcport has been corrected, submitted and approved by the Corpomtion for
           National and Community Service.

              •   A portable document format (pdf) Final FSRfile is attached.




(




(                                                          7
        Missouri Community Service Commission

               practice and future policy updates will be posted on OnCorps which is a web-based reporting system
               utilized by the MCSC. The MCSC provided the Corporation its monitoring checklist used to conduct sub-
    (          grantee site reviews and the list includes a step to verify proper background checks are documented.



        Finding No.3 - Gnnt f.nds were iaappropriately drawa dOWll.

               The Missouri Community Service Commission concurs with this findin g.

               In the future, the Commission will ensure that there is a complete understanding between the Corporation
               and the Commission regarding unused funds and will provide follow-up and clarification oftbe intent to
               utilize thoSe funds.

               Implementation is immediate.



        Finding No.4 - IDCOrrec:t data was reported on a Final FiuDcial Status Report

               The Missouri Community Service Commission concurs with this findin g.

               Auditors Recommendatioas:

               4a. Verify tbat tbe Commission develops efJective coatrol procedans to euure that tile ~ditara
               reported OD fi.aI FSRs a.d recorded ia ita baDcial maaagemeat systt:m are recoDCiled to (1) the:
               amouot reported to the BBS o. the Federal C.... Tnasadion Report, and (2) the amount of funds
               dnw. dowo from the BHS Paymeot Management System.

               As a control procedure, the Commission maintains a general ledger for each of its grants. Every transaction
               is logged into the appropriate genera1ledger. The general ledger is reconciled with the Periodic Expense
               Report (PER) and with the Federal Cash Transaction Report when completing the Financial Status Report.

               The f ollowing documents are attached as supporting documentation; demonstrating the Commission's
               compliance wilh this finding:

                   o   2Q08-2oo9 Moniloring Process: This document describes the Commission' s monitoring process
                       which includes a section on the Commission' s requirements for submitting Financial Status
                       Reports. This procedure was updated in 2008 and all Commission Staff and sub-grantee staffwas
                       trained accordingly.

                   o   Compliance Template: This form is used to compliance all reimbursement requests as they are
                       received. This template was updated in 2009 and all Commission staff was trained on how to
                       complete the fonn. Sub-grantees were mad.e aware of the compliance form updates at the October
                       2009 Prognun Directoo; meeting.

                   o   Provam Reimbursement Request: Sub-grantees are required to complete this form when
                       requesting reimbursements. This form was jointly updated by Commission staff. Sub-grantee staff
(                      was made aware of the updates at the July 2009 Program Directors quarterly meeting.
                                                               6
    Missouri Community Service Commission

           •   Member CODtraets aDd Forms: One sub-grantee did not require a member to sign the member
,              contract prior to charging time to the program and did not enter enrollment and exit information into the
(
               Web-Based Reporting System (WBRS) for four member> within 30 days of starting or ending their
               service.

               The Commission agrees with this finding and the sub grantee has been contacted. Please see the
               response from the sub grantee that follows:

               Mr. _ _ '" contract was signed prior to his service (10/11106), but was lost prior to bemgfiled He
               signed a "new" contract on 10130/06.


       Auditors RecOmmendation:

       The auditors recommend that the Corporation recover ineligible education awards in the amount of$6.113. Of
       this amount, $4,166 is related to the member who transferred to Teach for America; $1,551 relates to the
       member who was ill with a contagious infection, and the remaining $396 relates to the member who was
       involved in a car accident. 1be Commission does not agree that $1.551 and $396 should be considered
       ineligible education awards since the sub-grantees did follow regulations as they are written in AmeriCorps
       Regulations § 2522.230.

       In regsrds to the member who transferred to Teach for America, the MCSC n:qucsts recoosideratioo 00 behslf
       of the sub-grantee and the member, especially since the member transferred to an AmeriCorps Natiooal Service
       program.

       •   Attachment:

               o Letter from the member who transferred to Teach for America



       Plans to imp&cme•• recommend.tions:

       In reference to background cbecks, member contracts. enrollment and exit procedures, the Commission bas
       written procedures regarding Background Checks, Enrollments and Exits, and Member Contracts.

       Attachments:

       •   Member Contracl3 Overview - Implemented for the 2009-2010 Program Year

       •   Member Contract - Implemented for 2009-2010 Program Year: All sub-grantees were formally trained on
           this document at the June 2009 Program Directors Meeting.

       •   Sub-Grantee Policies &: Procedures (Background checks and exits) - This is a revised document as a result
           oftbe audil MCSC's executive director reviewed this document with Partnership for Youth, Poplar Bluff's
           Promise and Jumpstart for Young Children's prognm dir<etors via telephone in February 2010. In
           additi~ an email was sent to all sulrgrantees on Macch 22, 2010. It will be reviewed again with all sulr
           grantees at the upcoming June Program Directors Quarterly Meeting. Policy updates will be an ongoing

                                                            5
